PUBLIC’S CONCERNS WITH NRC REPORT
OF INDEPENDENT SAFETY ASSESSMENT
       (ISA) AT MAINE YANKEE


      CASE NO. 97-03S   1/26/98
    OFFICE OF THE INSPECTOR GENERAL
              EVENT INQUIRY




                 PUBLIC’S CONCERNS WITH NRC REPORT
                 OF INDEPENDENT SAFETY ASSESSMENT
                        (ISA) AT MAINE YANKEE

                              CASE NO. 97-03S




Joseph Bodensteiner, Special Agent      W. J. Stryker, Team Leader



                              James E. Childs
                        Assistant Inspector General
                             for Investigations
                                                                                                   Page

CHRONOLOGY.................................................................................... 2


EXECUTIVE SUMMARY...................................................................... 4


BACKGROUND..................................................................................        5


DETAILS

        I.      OIG REVIEW OF THE ISAT REPORT
                FINDINGS AND CONCLUSIONS....................................                        8

        II.     ISAT’S ACTIONS RELATING TO OPERABILITY
                DETERMINATIONS AT MYAPS..................................... 14


FINDINGS........................................................................................   16


LIST OF ACRONYMS......................................................................             17


GLOSSARY OF TECHNICAL TERMS.............................................                           19




                                                     1
                      CHRONOLOGY OF SIGNIFICANT EVENTS



Date                      Event

September 15, 1972        Operating license issued to MYAPS at 2440 MWt

July 10, 1989             NRC approved a thermal power increase to 2700 MWt

February 6, 1995          MYAPS shutdown to repair steam generators

December 4, 1995          NRC received an anonymous allegation letter from Union of
                          Concerned Scientists

January 3, 1996           NRC issued Confirmatory Order suspending authority and
                          limiting power operation

January 11, 1996          MYAPS restarted operation at 2440 MWt

May 28, 1996              NRC Chairman requested independent evaluation of safety
                          performance at MYAPS

May 30, 1996              NRC announced establishment of ISAT

May 31, 1996              ISAT Manager and Leader developed charter and coordinated
                          assessment with State of Maine

July 15, 1996 -           ISAT began initial on-site evaluation at MYAPS and at
July 26, 1996             the corporate offices of MYAPCo and YAEC

July 29, 1996 -           ISAT began its first review of MYAPS data and compilation of
August 9, 1996            findings at NRC

August 12, 1996 -         ISAT began second two-week on-site evaluation at MYAPS,
August 23, 1996           MYAPCo, and YAEC

October 7, 1996           NRC issued ISAT report

October 10, 1996          NRC holds public meeting in Wiscasset, Maine to discuss ISAT
                          findings and conclusions


December 6, 1996          MYAPS shutdown to resolve equipment operability concerns

December 18, 1996 &       NRC issued a Confirmatory Action Letter and Supplemental letter

                                           2
January 30, 1997   to MYAPS to resolve equipment operability issues

March 11, 1997     NRC held an enforcement conference with MYAPS in Wiscasset,
                   Maine




                                   3
                                  EXECUTIVE SUMMARY


The Office of the Inspector General (OIG) initiated this inquiry based on receipt of concerns
from the public regarding the Nuclear Regulatory Commission’s (NRC's) report entitled,
"Independent Safety Assessment of Maine Yankee Atomic Power Station," issued in October
1996. In brief, the Independent Safety Assessment Team’s (ISAT) report contained findings
which indicated that Maine Yankee Atomic Power Station (MYAPS) had significant items of
noncompliance with NRC regulations and with its design and licensing bases. However, the
ISAT concluded that the plant was considered adequate for safe operation. The concerned public
believed that the ISAT conclusion that MYAPS was adequate for safe operation was contradicted
by the findings of the ISAT.

In addition, the concerned citizens alleged that the ISAT report indicated that operability
determinations were conducted by the ISAT regarding components associated with the Residual
Heat Removal (RHR) and Component Cooling Water (CCW) systems. The citizens maintained
that operability determinations by the NRC violated the NRC's regulatory authority and should
have been performed by the licensee.

The OIG inquiry revealed that the significant deficiencies identified by the ISAT were either
resolved by the licensee during the ISA or were provided to NRC program offices for resolution.
OIG learned that the ISAT considered the balance of the good and bad of the safety systems and
programs reviewed to conclude that MYAPS was in general conformance with its licensing and
design bases. Additionally, the ISAT took into account MYAPS’ defense-in-depth when it
concluded that the plant posed no undue risk to public health and safety and was safe to operate.

The OIG inquiry found that several phrases such as “undue risk” and “adequate protection” to the
public were used by the ISAT to describe the NRC’s standard of protection of public health and
safety as applied to MYAPS. However, OIG learned that these phrases are not clearly defined by
the NRC.

The OIG concluded that those not involved with the nuclear industry may have been confused
with the ISAT’s assessment of MYAPS using language normally found in SALP reports.

OIG learned that the ISAT resulted in MYAPS performing additional reviews of the plant and
enhancing its self-assessment processes. The Surowiec 115 kV offsite power line, the thermal
relief valves to protect the heat exchangers, and the cable separation issues were uncovered by
the licensee as a result of MYAPS's expanded self-assessment.

OIG found that although the ISAT report contained language to suggest the ISAT made
operability determinations, OIG determined that all operability determinations were conducted by
MYAPS.

                                       BACKGROUND




                                                4
NRC Initiates An Independent Assessment Of MYAPS

As a result of discussions between the Governor of Maine’s office and the NRC Chairman’s
office regarding the safety and the effectiveness of regulatory oversight of MYAPS, the NRC
Chairman directed the NRC staff to conduct an independent evaluation of MYAPS' safety
performance. The NRC assembled a multi-disciplined group. This group comprised NRC
personnel who were independent of any recent or significant oversight responsibility for
MYAPS; representatives from the State of Maine; and contractors from the nuclear industry.
This group became the Independent Safety Assessment Team (ISAT). The ISAT Manager and
ISAT Leader developed a charter stating the team's overall goals and objectives as follows: (1)
Provide an independent assessment of the conformance of MYAPS to its design and licensing
bases including appropriate reviews at the site and corporate offices; (2) provide an independent
assessment of operational safety performance providing risk perspectives where appropriate; (3)
evaluate the effectiveness of licensee self-assessments, corrective actions and improvement
plans; and (4) determine the root cause(s) of safety significant findings and draw conclusions on
overall performance.

The ISAT was on-site at MYAPS between July 15 and 26, 1996, and again between August 12
and 23, 1996. During these periods, team members also conducted assessments at the MYAPS
corporate headquarters in Brunswick, Maine, and at the YAEC offices in Bolton, Massachusetts.

ISAT Adapted From NRC’s Diagnostic Evaluation Program

The independent safety assessment (ISA) was an independent, multi-disciplined, safety
assessment of MYAPS in response to the NRC Chairman’s request. The ISAT was the first time
the NRC had embarked on such an endeavor. The ISAT Manager and ISAT Leader stated that
they adapted the ISA concept and structure from the Diagnostic Evaluation Program (DEP),
which is outlined in NRC Management Directive 8.7. The DEP is a formal, independent, in-
depth assessment of a reactor facility conducted for the purpose of gaining additional insight into
current licensee safety performance. The assessment includes significant aspects of plant
operations, maintenance and testing, engineering and technical support, and management
effectiveness. This adaptation of the directive and handbook governed the scope, objectives,
authorities, responsibilities, and basic requirements for the ISA at MYAPS.

In accordance with its DEP adaptation, the ISAT was tasked to evaluate the adequacy of
MYAPS' performance related to activities that may affect public health and safety. The ISAT
was to document MYAPS' strengths and weaknesses in a formal report, placing emphasis on
conformance to the licensing and design bases and root cause determination of performance
problems. In addition, the ISAT was to provide sufficient information to characterize MYAPS'
current safety performance and its capability within existing programs to improve its safety


performance. This information combined with existing information would form the basis for
NRC's regulatory decisions regarding the MYAPS facility.

NRC Personnel, Contractors and State Of Maine Representatives Form ISAT

                                                5
The ISAT comprised twenty-five members: sixteen NRC members, three State of Maine
members, and six contractors. The ISAT was organized with five functional area team leaders
reporting to the ISAT Team Leader. The Team Leader reported to the Team Manager who
reported directly to the NRC Chairman. The Team Manager, Team Leader, and Functional Area
Team Leaders were all NRC personnel. The ISAT members were independent of both the NRC
Region I office and NRR.

The ISAT coordinated with the State of Maine to facilitate participation by State representatives
consistent with the Commission's policy on cooperation with States at commercial nuclear power
plants (57 FR 6462, February 25, 1992). In addition to the State of Maine's participation in the
assessment, the State had a two-member process team observe at key assessment milestones.
The process team provided the State with an evaluation of the independent safety assessment
relative to its fairness, balance, and objectivity. The State also had a special five-member
Citizen's Review Team (CRT) periodically briefed on the ISAT status. The CRT in turn
provided the State advice on and interpretations of the ISAT process and findings.

ISAT Assesses Certain Plant Areas

The ISAT conducted an assessment in the following areas of the plant: (1) operations, (2)
maintenance, (3) testing, (4) engineering, (5) analytic code support, and (6) self-assessment and
corrective actions. An emphasis was placed on identifying both licensee strengths and
weaknesses in the aforesaid areas. The assessment determined root causes for safety
performance weaknesses as well as identified significant problem areas.

NRC Issues ISAT Report

On October 7, 1996, the NRC Chairman approved the ISAT report on MYAPS. The ISAT
concluded that overall performance at MYAPS was considered adequate for operation.
However, a number of significant weaknesses and deficiencies were identified by the ISAT. The
team members believed that these deficiencies might result in the NRC taking enforcement
action against MYAPS. The ISAT reported that the weaknesses and deficiencies appeared to be
related to several root causes: economic pressures to contain costs and poor problem
identification as a result of complacency and the lack of a questioning attitude.

The NRC Chairman forwarded a copy of the ISAT report to the President and Chief Executive
Officer for MYAPCo. The Chairman requested that the company provide the NRC with its plans
for addressing the root causes of the deficiencies noted by the ISAT. On December 10, 1996,
MYAPCo provided NRC with its written response to the ISAT report. At a Commission briefing
held on February 4, 1997, MYAPCo senior management agreed with the ISAT findings with
respect to the root causes for MYAPS' deficiencies and outlined actions the company intended to
take to resolve these matters.

Conclusions of ISAT’s Assessment

The ISAT report contained the following findings, conclusions and root causes:


                                                6
Maine Yankee was in general conformance with its licensing-basis although
significant items of noncompliance were identified. The licensing-basis was
understood by the licensee but lacked specificity, contained inconsistencies, and
had not been well maintained.

The use of analytic codes for safety analyses was very good. Cycle specific core
performance analyses were excellent. More complicated, less frequently
performed safety analyses contained weaknesses, but the analyses were found to
be acceptable based on compensating margin.

The quality and availability of design-basis information was good overall.
Despite uncorrected and previously undiscovered design problems, the design-
basis and compensatory measures adequately supported plant operation at a power
level of 2440 MWt. However, the team could not conclude, and licensee did not
demonstrate, that at a power of 2700 MWt the design-basis assured adequate net
positive suction head (NPSH) for the containment spray pumps and the heat
removal capability of the component cooling water system in the event of a loss-
of-coolant accident.

While overall performance at Maine Yankee was adequate for operation, a
number of deficiencies were identified by the team in each of the areas assessed.
These deficiencies, which included weak identification and resolution of
problems; weak scope, rigor, and evaluation of testing; and declining material
condition stemmed from two closely related root causes. These root causes were
(1) economic pressure to be a low-cost energy producer has limited available
resources to address corrective actions and some plant improvement upgrades and
(2) there is a lack of a questioning culture which has resulted in the failure to
identify or promptly correct significant problems in areas perceived by
management to be of low safety significance.




                                        7
                                            DETAILS


I.     OIG REVIEW OF THE ISAT REPORT FINDINGS AND CONCLUSIONS

Concerned Citizens Request Clarification of ISAT Report

OIG initiated this inquiry as a result of concerns from the public related to the NRC report
entitled, “Independent Safety Assessment of Maine Yankee Atomic Power Station,” issued in
October 1996 by the NRC ISAT. Upon review of the ISAT report, certain citizens called for
clarification of the report findings and conclusions. One citizen stated, "The people of Maine
need the techno-babble of the ISAT clearly translated. When NRC inspectors say a program or a
system is acceptable with significant deficiencies of non-conformance found, what does that
mean? I as a member of the nuclear community know: they, Maine Yankee Atomic Power
Plant, were simply in noncompliance with existing NRC Regulatory Guides, or in other words,
the law." Other citizens were disturbed by what they stated were repeated instances in the ISAT
report where the ISAT identified safety significant issues or safety issues that appeared to violate
NRC regulations and then dismissed the issues with vague language or casual asides.

ISAT Uses Systematic Assessment of Licensee Performance (SALP) Language
To Address Its Audience

The ISAT Leader stated to OIG that the ISAT report was written, as all NRC reports, with the
intent to clearly inform its audience. The ISAT members explained to OIG that they, as well as
most involved with preparation of the ISAT report, knew the audience was diverse. They said
that the audience for the ISAT comprised the NRC Chairman and Commission, NRC staff,
MYAPCo and MYAPS, the Governor of Maine, citizens of Maine and the public-at-large. The
ISAT Leader stated that he took into account the entire audience for the ISAT report and decided
that the Systematic Assessment of Licensee Performance (SALP) benchmarks should be used in
the report. The SALP is an integrated assessment by the NRC of how well a given licensee
management is directing, guiding, and providing resources needed for the requisite assurance of
safety at a power plant. The SALP benchmarks for assessing performance are superior, good,
and acceptable. The ISAT Manager explained that the SALP process is an NRC effort to grade
the plants’ relative performance. Many of the ISAT members believed that the use of the SALP
language would enhance understanding of the ISAT’s assessment of MYAPS.

OIG learned, however, that the ISAT’s use of SALP language may have confused the public. A
member of the public who served on the Governor’s CRT expressed surprise with the report’s
use of SALP language. The CRT member stated that the report’s use of the terms ‘adequate and
good’ were a concern to the CRT. The CRT member said, “.... the average citizen would likely
have difficulty understanding NRC’s use of those terms, even though the report was drafted for
both the NRC and the public.” One ISAT Functional Area Team Leader also recognized that the
SALP terminology caused some confusion. He explained that in the SALP vernacular “good
means you've got a lot of faults and you're just kind of okay.” The ISAT Leader acknowledged
that the public was not as well informed on SALP terminology as the industry and the NRC;
however, he believed the use of new or different terminology by the ISAT would have caused

                                                 8
more confusion.

ISAT Explains Its Conclusions

With regard to the ISAT’s use of the phrase, “in general conformance” in the conclusion of the
report, the ISAT Leader explained that the team chose to state MYAPS was in general
conformance with its licensing and design bases because the vast majority of the safety systems
and other items inspected by the team were in conformance. He further explained that “general
conformance” was chosen by the ISAT to indicate to the reader “... that we looked at a very large
number of specific instances and measured those instances against their licensing and design
basis [sic] and found they were in compliance.” One of the ISAT Functional Area Team Leaders
advised OIG that there were different levels of licensee performance in the areas assessed at
MYAPS. He said MYAPS did some things very well, and at the same time they “did some
things that weren't bright at all.” The ISAT Leader said that the ISAT report reflects the
variances of MYAPS’ performance. However, he stated the ISAT report concentrates on the
deficiencies found at MYAPS and presents only some of the good elements at MYAPS.

In an attempt to provide additional clarification of the ISAT’s conclusions, another ISAT
Functional Area Team Leader told OIG that MYAPS was generally in conformance given the
totality of evidence gathered by the ISAT. He added that the team took into consideration the
good and bad items and concluded that in balance MYAPS was in general conformance. All the
ISAT members interviewed by OIG concluded that MYAPS was in general conformance with its
licensing and design bases with some safety significant deficiencies.

In the six areas assessed by the ISAT, the following areas were identified as being in
conformance:

1.     In the area of operations, strengths were noted in the areas of operator performance during
       routine and transient operating conditions; shift turnovers and pre-evolution briefs; use of
       risk information to assure safe operations; and the involvement of management in day-to-
       day operations.

2.     In the maintenance area, strengths were noted regarding MYAPS’ knowledge and use of
       risk methodologies for planning, prioritizing, and scheduling work; the control and
       limited use of temporary sealants; and a motivated and dedicated work force.

3.     The ISAT identified strengths in the capability and experience of the engineering staff;
       day-to-day engineering support of maintenance and operations; in the quality of most
       calculations; and in the routine use and application of analytic codes.

4.     In the area of self-assessment and corrective actions, strengths were noted in MYAPS’
       ability to effectively plan.

5.     The ISAT found that MYAPS’ cycle-specific core performance analyses, such as the
       Control Element Assembly (CEA) drop transient were excellent. Additionally, the ISAT
       found that MYAPS had satisfied its safety evaluation report (SER) conditions.

                                                9
The NRC Chairman Discusses ISAT Procedures And Conclusions

The NRC Chairman told OIG that she agreed with the basis used by the ISAT to make the
determination that MYAPS was "in general conformance with its licensing basis although
significant items of nonconformance were identified." The Chairman explained that the safety
significant issues identified by the ISAT were either resolved or compensatory actions were taken
by MYAPS. She said these actions were consistent with NRC regulations and policies.

With regard to the significant items of noncompliance identified by the ISAT, the Chairman
stated that the NRC will look at the risk and the pervasiveness of the noncompliances and then
take the appropriate enforcement action. She advised OIG that the NRC has a set of regulations
that the licensee is expected to live within, and if the licensee operates outside the regulations it
is viewed as noncompliance. The Chairman stressed that the NRC takes appropriate action in the
event of noncompliance.

The Chairman explained that full compliance with all NRC regulations is the goal the NRC
would like every licensee to achieve. However, the agency recognizes that plants will not
operate trouble-free. The Chairman stated to OIG that when a noncompliance occurs, the NRC
must evaluate the degree of risk posed by that noncompliance to determine what specific
immediate action is required. Where needed to ensure adequate protection of public health and
safety, the NRC may demand immediate licensee action, up to and including plant shutdown.

The Chairman continued by stating that to determine the appropriate action to be taken, the NRC
must evaluate any noncompliance both in terms of its safety significance and by assessing
whether it is part of a larger pattern. This is consistent with the current NRC enforcement policy
which was recently changed with Commission approval. The Chairman referenced
“Enforcement Guidance Memorandum - Consideration of Risk in Enforcement Actions,” dated
June 6, 1997. The Enforcement Guidance Memorandum (EGM) was issued to provide guidance
for considering how the risk significance of events should be factored into NRC staff decisions
on enforcement actions. This EGM reflects the December 4, 1996, revision to the Enforcement
Policy published on December 10, 1996, at 61 Federal Register (FR) 65088. The Chairman
concluded by noting that the NRC must ensure that corrective actions are carried out by licensees
in accordance with NRC policy. The Chairman informed OIG that Criterion XVI of the Code of
Federal Regulations (CFR), Part 50, Appendix B, “Quality Assurance Criteria for Nuclear Power
Plants and Fuel Reprocessing Plants,” outlines measures to correct conditions of degradation or


noncompliance. The Chairman added that 10 CFR 50.59 and Generic Letter 91-18 require timely
resolution of noncompliance issues.

ISAT Applies NRC Standard Of Protection Of Public Health & Safety To MYAPS

Some of the ISAT members explained to OIG that although there are safety significant
deficiencies at MYAPS, the redundancy (defense-in-depth) provided by the multiple levels of
design and operating requirements reasonably assured the NRC that there was no undue risk to
public health and safety. The ISAT Leader stated that MYAPS’ defense-in-depth was one of the

                                                10
reasons the ISAT reported the plant was operating safely. The concept of defense-in-depth
requires: (1) the application of conservative codes and standards, which create substantial safety
margins in the design of nuclear plants; (2) high quality design, construction, and operation of
nuclear plants to reduce the likelihood of malfunctions, including the use of automatic safety
system actuation features; (3) the recognition that equipment can fail and operators can make
mistakes, thus requiring redundancy in safety systems and components to reduce the chances that
malfunctions or mistakes will lead to accidents that release fission products from the fuel; and (4)
the recognition that in spite of these precautions, serious fuel damage accidents can happen, thus
requiring containment structures and other safety features to prevent the release of fission
products off site. The ISAT members stated that they did not find that continued operation of
MYAPS posed an undue risk to public health and safety. None of the ISAT members believed
that their findings of noncompliance necessitated the shutdown of MYAPS to protect public
health and safety.

One of the agency experts interviewed by OIG said that the NRC standard that was applied to
MYAPS is whether the deficiencies posed an undue risk to public health and safety. He stated
that a deficiency that poses an undue risk to public health and safety will be a violation of NRC
regulations and will result in prompt corrective action, including plant shutdown if necessary.
He informed OIG that the Commission has a wide spectrum of remedies for dealing with
violations of regulations. He said that because the ISAT made no finding that continued
operation of MYAPS posed an undue risk to public health and safety, it was safe to operate.

The Chairman informed OIG that the NRC must ensure adequate protection of public health and
safety. This is the standard to which the NRC is held. The Chairman stated that the phrase
“adequate protection of public health and safety” has been referenced in past judicial proceedings
involving the NRC. As an example, Chairman JACKSON cited “Revision of Backfitting
Process for Power Reactors,” 53 FR 20603, dated June 6, 1988.

OIG learned that regarding the definition of adequate protection, 53 FR 20603 states: “We
[NRC] argue that such a definition is not possible in the near future, but that the public and
licensees are nonetheless protected against misuse of the phrase. ... there is nothing unusual or
imprudent, and certainly nothing illegal, about decisions which ultimately turn on the application
-- by duly constituted authority and after full consideration of all relevant information -- of
phrases which are not fully defined. ... Indeed, most of the Commission’s rules and regulations
are ultimately based on unquantified and, as we note below, presently unquantifiable ideas of
what constitutes ‘adequate protection’.”

ISAT Turns Over Safety Issues To NRC Program Offices

OIG learned that the identification of noncompliances with NRC requirements at MYAPS was
not the focus of the ISAT review. The ISAT told OIG that its focus was to assess the strengths
and weaknesses of safety performance at MYAPS. However, the ISAT members maintained that
they brought to the licensee's attention safety issues of significant concern, as well as
communicating these safety issues to NRC Region I and NRR. The ISAT members noted that
during the ISA inspection, the team informed NRC Region I and NRR of any potential safety
issues so they could take appropriate regulatory action.

                                                11
The ISAT Manager and ISAT Leader informed OIG that following the assessment, they provided
extensive briefings and documents to NRC program offices to facilitate issue resolution and
possible enforcement action. The ISAT Leader stated that when violations of requirements are
identified, the NRC staff determines the appropriate action in accordance with NUREG-1600,
"General Statement of Policy and Procedures for NRC Enforcement Actions." The Region I
Regional Administrator stated to OIG that the NRC is considering whether enforcement action is
warranted for the significant items of nonconformance identified in the ISAT report. A public
enforcement conference was held in March 1997 to address MYAPS noncompliance issues.

MYAPCo, in the course of addressing deficiencies identified by the ISAT, shut down MYAPS
on December 6, 1996, to resolve equipment operability issues. Later, MYAPCo agreed, pursuant
to an NRC Confirmatory Action Letter (CAL), dated December 18, 1996, and Supplement 1 to
the CAL, dated January 30, 1997, to resolve to the satisfaction of the NRC staff certain design
and configuration control concerns at MYAPS prior to restart. The Region I Administrator
informed OIG that MYAPS was under the process outlined in NRC Inspection Manual Chapter
0350, "Staff Guidelines for Restart Approval." He stated that the NRC staff would not permit
restart of MYAPS until there was reasonable assurance that the plant will be operated in a
manner that would pose no undue risk to public health and safety. OIG learned that subsequent
to the interview with the NRC Region I Administrator, MYAPCo decided to decommission
MYAPS.

Observations on ISA Process

Regarding the overall observations of the ISA process, the ISAT Manager and ISAT Leader
believed that the ISAT resulted in MYAPS developing a more questioning attitude and
identifying additional deficiencies at the plant. OIG learned that subsequent to the ISAT’s
review, MYAPS identified safety problems such as the Surowiec 115 kV offsite power line, the
thermal relief valves to protect the heat exchangers, and the cable separation. The ISAT Manager
said, “... we sensitized the utility to self-identification and timely correction.” The ISAT


members and the Region I staff interviewed by OIG believed that the ISA preempted future
decline of safety performance at MYAPS.

The ISAT Leader opined to OIG that the ISA process was a valuable tool for the NRC to assess
plant performance and should be used in the future. He believed that the ISA prompted MYAPS
to change its way of doing business. OIG learned that as a result of the ISAT’s findings,
MYAPS developed three improvement initiatives: (1) An Excellence Action Plan to address the
root causes described in the ISA report and in MYAPS’ self-assessments; (2) a Business Plan to
establish the budget initiatives; and (3) a “Learning Process” to improve problem identification
and corrective action programs for MYAPS.

The Chairman advised OIG that the ISA has had a threefold impact: (1) the ISAT’s findings
have been provided to Region I for follow-up action; (2) NRR has undertaken several actions
regarding the regulation of MYAPS; and (3) the staff has developed a “lessons learned”
document. Further, the Chairman stated that the ISA has raised license and design issues which

                                              12
will result in short-term and long-term changes to agency policy. The Chairman noted that the
ISAT’s identification of weaknesses in MYAPS’ design basis caused MYAPS to examine other
areas in the plant. She said that the cable separation issue was an example of MYAPS’ expanded
self-assessment that occurred, in part, as a result of the ISAT. She advised that although the
ISAT did not specifically review the cable separation area, their assessment caused MYAPS to
perform additional reviews and enhance its self-assessment processes.




                                             13
II.    ISAT’S ACTIONS RELATING TO OPERABILITY
       DETERMINATIONS AT MYAPS

Concerned Citizens Allege ISAT Conducted Operability Determinations

OIG received allegations that during the ISA operability determinations were conducted by the
NRC regarding components associated with the Residual Heat Removal (RHR) and Component
Cooling Water (CCW) systems. The concerned citizens pointed out that on page 19 of the ISAT
report it states: "The original transient analysis calculation was no longer available. However,
the vendor was able to provide a stress report for a heat exchanger of similar design and
materials. The ISA reviewed this information and concluded that these heat exchangers could be
considered operable at the higher thermal values resulting from plant operation at 2700 MWt.”
At the end of page 19 and continuing at the top of page 20, it is again interpreted by certain
citizens that the ISAT had conducted an operability determination. The report states: “Despite
these non-conservatisms, the ISA team concluded that it was appropriate to consider the
PCCW/SCCW systems operable at power levels up to 2440 MWt.” The citizens maintained that
these operability determinations were in violation of the NRC's statutory authority. One citizen
advised that operability determinations of a system, structure or a component (SSC) must be
made by the licensee via the formal process outlined in Generic Letter 91-18, "Information to
Licensees Regarding Two NRC Inspection Manual Sections on Resolution of Degraded and
Nonconforming Conditions and on Operability."

Generic Letter 91-18 Guides ISAT Review

OIG reviewed Generic Letter 91-18 which discusses degraded conditions and operability
determinations. The Generic Letter provides information on two NRC inspection manual
sections that clarify guidance on assessing operability of degraded or non-conforming conditions
concerning important plant equipment. OIG learned that the purpose of Generic Letter 91-18
was to provide guidance to NRC inspectors for the review of licensee operability determinations
affecting plant SSCs. This information was also sent to licensees to assist in assessing certain
situations where further clarification on operability of important SSCs was needed. In addition,
OIG learned that Generic Letter 91-18 only served to clarify existing requirements, but it did not
create new or different requirements.

OIG learned that an SSC is generally said to be operable when it can perform and fulfill its
intended safety function(s). If the NRC during either an inspection, safety review, or assessment
develops information that questions whether an SSC could perform its safety function when
required, then the SSC would be considered inoperable. NRC regulation prohibits the NRC staff
from making an initial determination that SSCs are, in fact, operable. The licensee must make
this determination. Generic Letter 91-18 states that the NRC staff is allowed to assess, inspect,
review, and enforce the regulations to ensure that all important SSCs can perform their safety
functions when required.

ISAT Explains Actions Pertaining To Operability Determinations At MYAPS

The ISAT Leader acknowledged to OIG that statements about MYAPS’ operability in the ISAT

                                               14
report could confuse a reader. He said, “We may say it’s safe and that it’s operable, but that’s
part of our authority and our jurisdiction for making a decision or explaining to the reader [of the
ISAT report] why it’s okay, why we didn't go further.” The ISAT members told OIG that at no
time did anyone on the team conduct an operability determination. They maintained MYAPS
made the initial operability determinations for the systems in accordance with the information set
forth in Generic Letter 91-18, and the ISAT reviewed those determinations. One ISAT member
stated that the team reviewed and questioned the licensee about their operability determination
processes, which led to the licensee identifying inoperable conditions. According to the ISAT
members, they performed independent safety assessments on the likelihood of the respective
equipment performing its safety function to fulfill a primary objective of the ISAT. OIG learned
that MYAPS had conducted operability determinations based on their completion of documents
titled “Ensuring The Functional Capability Of A System Or Component”. These documents
indicated that MYAPS made operability determinations concerning the RHR &CCW systems
during the ISA.




                                                15
                                       FINDINGS

1.   The OIG inquiry revealed that the significant deficiencies identified by the ISAT were
     either resolved by the licensee during the ISA or were provided to NRC program offices
     for resolution. OIG learned that the ISAT considered the balance of the good and bad of
     the safety systems and programs reviewed to conclude that MYAPS was in general
     conformance with its licensing and design bases. Additionally, the ISAT took into
     account MYAPS’ defense-in-depth when it concluded that the plant posed no undue risk
     to public health and safety and was safe to operate.

2.   The OIG inquiry found that several phrases such as “undue risk” and “adequate
     protection” to the public were used by the ISAT to describe the NRC’s standard of
     protection of public health and safety as applied to MYAPS. However, OIG learned that
     these phrases are not clearly defined by the NRC.

3.   The OIG concluded that those not involved with the nuclear industry may have been
     confused with the ISAT’s assessment of MYAPS using language normally found in
     SALP reports.

4.   OIG learned that the ISAT resulted in MYAPS performing additional reviews of the plant
     and enhancing its self-assessment processes. The Surowiec 115 kV offsite power line,
     the thermal relief valves to protect the heat exchangers, and the cable separation issues
     were uncovered by the licensee as a result of MYAPS's expanded self-assessment.

5.   OIG found that although the ISAT report contained language to suggest the ISAT made
     operability determinations, OIG determined that all operability determinations were
     conducted by MYAPS.




                                            16
                      LIST OF ACRONYMS


CAL      Confirmatory Action Letter

CCW      Component Cooling Water

CEA      Control Element Assembly

CFR      Code of Federal Regulations

CRT      Citizens Review Team

DEP      Diagnostic Evaluation Program

ECCS     Emergency Core Cooling System

EDO      Executive Director for Operations

FR       Federal Register

ISA      Independent Safety Assessment

ISAT     Independent Safety Assessment Team

MYAPCo   Maine Yankee Atomic Power Company

MYAPS    Maine Yankee Atomic Power Station

MWt      Mega-Watt Thermal power

NPSH     Net Positive Suction Head

NRC      U.S. Nuclear Regulatory Commission

NRR      Office of Nuclear Reactor Regulation

OIG      Office of the Inspector General

PSSW     Primary Component Cooling Water

PWR      Pressurized-Water Reactor

RHR      Residual Heat Removal

SBLOCA   Small Break Loss-of-Coolant Accident

                                 17
SCCW   Secondary Component Cooling Water

SER    Safety Evaluation Report

SSC    System, Structure or Component

UCS    Union of Concerned Scientists

YAEC   Yankee Atomic Electric Company




                              18
                           GLOSSARY OF TECHNICAL TERMS


Code of Federal Regulations - contains rules and regulations of Federal agencies in a codified
format, similar to the U.S. Code, which codifies laws passed by Congress. The CFR is divided
into 50 titles or subject areas, each broken down into chapters, subchapters, parts and sections.
The NRC’s regulations appear in Chapter 1 of Title 10.

Component Cooling Water System - is a closed loop system which transfers heat from reactor
auxiliaries to the service water system. The purpose of the CCWS includes supplying water to
cool various plant components, transferring the heat generated by various plant components to
the service water system, and serving as a barrier between the service water system and the
radioactive or potentially radioactive fluids contained in the system and components cooled by
the CCWS.

Containment - the structures, within and including the reactor building, designed to prevent the
escape of radiation from the reactor to the outside environment. The reactor containment itself
usually consists of layers of steel and reinforced concrete.

Defense-in-Depth - the concept of designing nuclear power plants to enure against equipment
failure, human error, and severe natural events. Multiple barriers to radiation release and
redundant and backup systems are designed into the plant so that it can withstand even the most
unlikely malfunctions.

Degraded Condition - a condition of a system, structure, or component in which there has been
any loss of quality or functional capability.

Design Basis - is that body of plant-specific design bases information defined by 10 CFR 50.2.

Emergency Core Cooling System - a safety system that prevents the fuel in a nuclear reactor from
melting should a sudden loss of normal coolant occur.

Federal Register - is a daily publication of the Federal government that provides official
notification and record of Federal agency rulemaking actions, proposed rulemakings and a host
of notices and announcements of the other agency actions and meetings.

Fuel Cycle - the sequence of steps involved in supplying, using reprocessing, and disposing of
the fuel used in nuclear reactors.

Megawatt (t) - a standard measure of electrical capacity: one megawatt equals one million watts
or a thousand kilowatts. The (t) stands for thermal heat.



Net Positive Suction Head - is the absolute pressure at the pump inlet, plus velocity head, minus
the vapor pressure of the fluid at pump temperature, and corrected to the elevation of the pump

                                                19
centerline in the case of horizontal pumps or to the entrance to the first-stage impeller for vertical
pumps.

Nonconforming Condition - a condition of a system, structure, or component in which there is
failure to meet requirements or licensee commitments

Operability Determination - The operability of a system, sub-system, train, component, or device
is determined when it is capable of performing its specified safety function(s) and when all
necessary attendant instrumentation, controls, normal or emergency electrical power, cooling and
seal water, lubrication, and other auxiliary equipment that are required for the system, subsystem,
train, component, or device to perform its specified safety function(s) are also capable of
performing their related function(s).

Pressurized Water Reactor - a light water reactor in which the water used as a moderator is kept
under pressure, preventing it from boiling at normal temperatures.

RELAP5YA - is a computer program developed by Yankee Atomic Electric Company for
analyses of thermal-hydraulic responses of the light-water reactor system of transient events and
accidents, such as a loss of coolant accident.

Small Break Loss-of-Coolant Accident - a small break loss-of-coolant accident (LOCA) is a class
of LOCA with smaller break sizes, normally less than one square foot, where there is no clearly
distinguishable phases of blowdown, refill, and reflood like that experienced in a large break
LOCA.

Systematic Assessment of Licensee Performance - a principal and regular source of data by
which licensee performance is judged is the SALP program. Under the program, the
performance of each licensee with a nuclear power facility in the United States is evaluated
through the periodic, comprehensive examination of all available data relevant to each facility.
The SALP is an integrated assessment as to how well a given licensee management is directing,
guiding, and providing resources needed for the requisite assurance of safety. The purpose of the
SALP review is to direct both NRC and licensee attention and resources toward exactly those
areas which can closely affect nuclear safety and which need improvement.

Transient - a change in the temperature and/or pressure of the reactor coolant system due to a
change in power output. Transients can be intentional or accidental.




                                                 20
